333
                          FDIC Office of Inspector General
                             Strategic Plan Framework
                                               (2004-2008)

                                                   Vision
         The agency and Congress see us as a valuable part of the Corporation and we
                     are viewed as one of the best OIGs in government.

                                               Mission
            The Office of Inspector General promotes the economy, efficiency, and
         effectiveness of FDIC programs and operations, and protects against fraud,
        waste, and abuse, to assist and augment the FDIC's contribution to stability and
                       public confidence in the nation's financial system.

                                          Strategic Goals

Value and Impact              Communication                   Human Capital                  Productivity
                               and Outreach
OIG products will add                                         The OIG will align                 The OIG will
  value by achieving            Communications                   its human                        effectively
  significant impact         between the OIG and                resources to                     manage its
related to addressing          the Chairman, the               support the OIG                    resources
issues of importance               Congress,                       mission
to the Chairman, the         employees, and other
  Congress, and the           stakeholders will be
        public                      effective



                                        Strategic Objectives

    OIG will contribute          OIG will foster               OIG will enhance:            OIG will ensure:
     to ensuring the:              effective:
                                                                  Workforce                    OIG processes
    Protection of              Agency relations                  analysis and                  are efficient
     insured depositors          and                               planning
                                 communications                                                 OIG products
    Safety & soundness                                           Competency                    meet quality
     of FDIC-supervised         Congressional                     investments                   standards
     institutions                relations and
                                 communications
                                                                  Leadership
    Protection of                                                 development
     consumer rights            OIG employee
                                                                  The
                                 relations and
    Achievement of              communications
                                                                   development of
     recovery to                                                   a results-
     creditors of               Relations and                     oriented high
     receiverships               communications                    performance
                                 with other OIG                    culture
    Effective                   stakeholders
     management of
     agency resources




                                            Core Values
             Communication                                                          Excellence
                              Objectivity                   Responsibility
                                                                                                                i
Inspector General Foreword

    This report presents the results of our performance compared to our fiscal year
    (FY) 2005 annual performance goals. It not only conveys the results of our audits
    and investigations of corporate programs and operations but also examines our
    own performance and the extent to which we have achieved the internal
    organizational goals that drive our work.
    The four overall strategic goals, each with a number of subgoals, that we have
    pursued during FY 2005 can be summarized as follows:
                 OIG Products Add Value and Achieve Significant Results
                 The OIG Effectively Communicates with Stakeholders
                 The OIG Aligns Human Resources to Support the OIG Mission
                 The OIG Effectively Manages Resources
    I am pleased to report that we met or substantially met 31 of our 37 1 annual
    performance goals, or 84 percent of our goals in the above areas. This compares
    to an achievement level of 76 percent in FY 2004. I would point out that
    performance cannot be evaluated based solely on a statistical summary of
    measures. It is, however, very constructive for us as an organization to consider
    each of our four strategic goals, examine how well we achieved them, and learn
    what we might do differently in the future to accomplish even more in those
    areas. These considerations are and will continue to be ongoing.
    I invite all OIG staff to view our performance results and provide additional
    feedback to me or any other member of the executive staff in the spirit of our
    continuing efforts to be the best OIG in government. I especially thank all OIG
    staff who worked in pursuit of our FY 2005 goals and all stakeholders who both
    challenged and supported us in carrying out our performance plan during the past
    fiscal year.




    1
      Originally, there were 39 goals in our FY 2005 Performance Plan. However, one goal was subsequently
    combined with another goal and a second goal was considered not applicable because the event needed to
    “trigger” the goal did not occur.



                                                                                                             ii
OIG FY 2005
Performance Report

                                                                                                           Page

  OIG STRATEGIC PLAN FRAMEWORK (2004-2008)……………………….…………...i

  INSPECTOR GENERAL FOREWORD ……………………………………………….……ii

  BACKGROUND ………...…………………………………………………………..………..2

  STATISTICAL SUMMARY OF PERFORMANCE ........................................................ 3


  PERFORMANCE OVERVIEW....................................................................................... 4


  PERFORMANCE BY STRATEGIC GOAL AREA......................................................... 6


        OIG Products Add Value and Achieve Significant Impact............................... 6

        Communications Between the OIG and Stakeholders................................... 17
         Will Be Effective

        OIG Will Align Its Human Resources to Support the OIG Mission ............... 23

        OIG Will Effectively Manage Its Resources ..................................................... 25

  DETAIL LISTING OF ANNUAL PERFORMANCE GOAL
     ACCOMPLISHMENT........................................................................................... 34


   STATISTICAL SUMMARY OF PERFORMANCE –
      FY 2004 ANNUAL PERFORMANCE GOALS .................................................... 38




                                                                                                                    1
Background
 Nature and Purpose of the OIG’s Annual Performance Report
   The Office of Inspector General develops its own independent strategic plan and
   annual performance plan. These plans are designed to establish goals to measure
   performance consistent with the principles of the Government Performance and
   Results Act (GPRA or Results Act). This report presents our performance against
   our FY 2005 Performance Plan (October 1, 2004 – September 30, 2005), focusing
   on the most meaningful annual measures related to achieving our strategic goals
   and objectives.
 Relationship to the FDIC’s Annual Report
   To help streamline its reporting process, the FDIC redesigned its Annual Report
   for 2002 by combining its GPRA Program Performance Report, Chief Financial
   Officers Act Report, and traditional Annual Report. The Performance Results
   section of the combined report presents and summarizes the Corporation’s
   performance against its annual performance goals. The Corporation’s annual
   performance goals address its mission to “Maintain the stability and public
   confidence in the nation’s financial system…” under four strategic goals:
   (1) Insured depositors are protected from loss without recourse to taxpayer
   funding; (2) FDIC-supervised institutions are safe and sound; (3) Consumers’
   rights are protected and FDIC-supervised institutions invest in their communities;
   and (4) Recovery to creditors of receiverships is achieved. We believe that
   accomplishing the OIG’s strategic and annual goals and objectives contributes to
   the Corporation’s achievement of its mission and goals and objectives.
   The requirement for an annual performance report under the Results Act applies
   to the agency as a whole rather than to the OIG as a separate component.
   However, because of the unique mission and independent nature of Inspectors
   General under the Inspector General Act, we prepare separate strategic and annual
   plans and reports, rather than integrating OIG goals and results into the
   Corporation’s plans and reports.
 Relationship to the OIG’s Semiannual Report to the Congress
   Annual performance reports of OIGs prepared under the Results Act differ from
   semiannual reports of OIGs prepared under the Inspector General Act. The two
   reports differ with respect to the time periods covered (12 months vs. 6 months)
   and the specific reporting requirements. Because both types of reports present
   OIG accomplishments to the Congress, we generally include our annual
   performance report as a separate but integral component of our Semiannual
   Report to the Congress covering the six-month period ending September 30.




                                                                                      2
Statistical Summary of Performance
   The following table provides a statistical summary of our performance by strategic
   goal for FY 2005. The table reflects the number of annual performance goals that
   were Met, Substantially Met, or Not Met.

                                          FY 2005 Annual Performance Goal Accomplishment 2
                                                         (Number of Goals)
                                             Met           Substantially          Not Met
            Strategic Goals                                   Met 3
                                                                                                      Total



   1.   OIG Products Add Value
        and Achieve Significant                6                  1                   3                 10
        Impact
   2.   Communication With
                                               6                  0                   1                  7
        Stakeholders is Effective
   3.   Human Resources are
        Aligned to Support the                 2                  1                   0                  3
        OIG Mission
   4.   The OIG Effectively
                                              12                  3                   2                 17
        Manages Resources
              Total                           26                  5                   6                 37
              Percentage                     70%                14%                 16%               100%



As shown in the table, overall we met or substantially met 31 of our 37 annual
performance goals for FY 2005 (84 percent). For the previous reporting period (FY
2004), we had a 76 percent level of achievement of goals met or substantially met (see
table on page 38). Organizational performance cannot be evaluated based solely on a
statistical summary of measures – given that all measures are not equal in weight and the
quality of the measures is still evolving. A summary level discussion of our performance
by strategic goal area is presented in the Performance Overview section.




        2
          A detail listing showing goal status for each FY 2005 performance goal is provided beginning on page 34.
        If the FY 2005 goal had a similar goal in 2004, the detail listing also shows goal accomplishment for 2004.
        3
         Unless otherwise noted, a quantitative goal was considered substantially met if actual performance came
        within 10 percent of the target level of performance. Twenty-six (26) of our 37 goals are considered
        quantitative goals in that they set specific quantitative targets for performance.


                                                                                                                      3
Performance Overview
  As indicated previously in the statistical summary section, overall we met or
  substantially met 31 of our 37 performance goals (84 percent) in FY 2005. Presented
  below is a brief overview of our performance for each of the four strategic goals. A
  discussion of individual goal accomplishment is presented in the next section and a
  detailed listing of goal accomplishment is presented beginning on page 34.
  Strategic Goal 1: OIG Products Add Value and Achieve
  Significant Impact
     We met or substantially met 7 of our 10 performance goals to add value and
     achieve significant impact with our products and services under Strategic Goal 1.
     Of particular note, we achieved a 1.73 to 1 ratio of monetary benefits to operating
     costs for our audit operations, as measured over a three-year period. In other
     words, we received a return of $1.73 for each dollar spent on our audit operations
     over the past three years. This exceeded our goal of achieving a 1:1 ratio. On the
     investigation side, 80 percent of our investigation cases that were accepted for
     prosecution resulted in convictions, pleas, and/or settlements, which significantly
     exceeded our target of 70 percent.
     On a less positive note, we concluded that we did not meet two goals related to
     improving client satisfaction with our audit, evaluation, and investigation
     functions. As reflected in our annual client survey, FDIC executives voiced
     concerns about various aspects of our core functional areas. Many of these
     concerns were similar to those raised in previous client surveys. We have
     developed action steps to address these concerns as well as other opportunities for
     improvement identified through the survey. We also recognize that a certain
     tension between the OIG and its clients may be inherent in the nature of our
     mission and have some bearing on client survey results.
  Strategic Goal 2: Communication with Stakeholders is
  Effective
     We met or substantially met six of our seven performance goals to foster effective
     communications and outreach with our stakeholders under Strategic Goal 2.
     Significant efforts in support of this strategic goal during the year included
     cosponsoring an Emerging Issues in Banking symposium with the Federal
     Reserve Board and Department of Treasury OIGs, hosting an open house in our
     Electronic Crimes Unit laboratory for FDIC executives, and continuing to meet
     regularly with FDIC executives and managers in both headquarters and regional
     offices.




                                                                                       4
Strategic Goal 3: Human Resources are Aligned to Support
the OIG Mission
  We met or substantially met all three of our performance goals to align human
  resource to support the OIG mission under Strategic Goal 3. Key results under
  this strategic goal included establishing an OIG mentoring program and
  participating in the IG community’s pilot implementation of e-learning training
  courses.

Strategic Goal 4: The OIG Effectively Manages Resources
  We met or substantially met 15 of our 17 performance goals to effectively
  manage OIG resources under Strategic Goal 4. One of our more significant
  accomplishments under this strategic goal was to develop a new web-based
  Investigations Data System that will significantly improve the previous system's
  availability and performance through improved technology.




                                                                                     5
Performance By Strategic Goal Area

This section presents a discussion of individual goal accomplishment by strategic goal
area. The achievement status of each performance goal is graphically represented by
arrows utilizing a traffic light color system as follows:


           Green Arrow – Goal Met


           Yellow Arrow – Goal Substantially Met


            Red Arrow – Goal Not Met

   Strategic Goal 1: OIG Products Add Value and Achieve
   Significant Impact
   Overall, we met or substantially met 7 of our 10 annual performance goals (APG)
   under Strategic Goal 1. The 10 goals are further discussed below.

       APG 1.0.1 – Issue audit and evaluation reports covering all 7 OIG-identified
       risk-based management and performance challenges (MPC)
       As shown in the following graph, we met this goal. During FY 2005, the OIG
       issued 40 audit and evaluation reports covering all 7 OIG-identified risk-based
       management and performance challenges (MPCs) facing the Corporation.


                                                              Met


                                              Number of OIG-Identified Management and
                                            Performance Challenges Covered by Audit and
                                                     Evaluation Reports Issued
                                                             in FY 2005
                                          10

                                           8
                         Number of MPCs




                                           6
                                                               7       7
                                           4

                                           2

                                           0

                                                    2005 Target    2005 Actual




                                                                                          6
The seven MPCs covered included the following.
•   Management and Analysis of Risks to the Insurance Funds
•   Security Management
•   Money Laundering and Terrorist Financing
•   Corporate Governance in FDIC
•   Resolution and Receivership Activities
•   Protection of Consumer Interests
•   Corporate Governance in Insured Depository Institutions


APG 1.0.2 – Issue an average of 2.5 reports per team

As shown in the following graph, we met this goal. During the fiscal year, OA’s
16 audit and evaluation teams issued a total of 40 reports for an average of 2.5
reports per team.

                                                    Met


                                    Number of Audit and Evaluation Reports
                                               Issued Per Team
                                                   FY 2005

                                     3
               Number Reports Per




                                     2                2.5      2.5
                    Team




                                     1


                                     0

                                            2005 Target     2005 Actual




                                                                                   7
APG 1.0.3 – Maintain a ratio of monetary benefits to Office of Audits operating
costs of at least $1.00 to $1.00, as measured over a 3-year period
As shown in the following graph, we met this goal. From October 1, 2002 to
September 30, 2005, monetary benefits resulting from audit and evaluation reports
totaled $70,891,073 in relation to Office of Audits operating costs of $40,999,230
for a ratio of 1.73 to 1 (or a return of $1.73 for each dollar spent.) This is above the
target ratio of 1 to 1. (Note: For purposes of this goal, Office of Audits operating
costs are based on outlays during the reporting period, and do not include an
allocation of outlays of other OIG components and certain OIG-wide non-recurring
expenses.)

                                                                 Met


                                              Ratio of Office of Audit Monetary Benefits to
                                                             Operating Costs
                                                            FY 2003 - FY 2005

                                              3.00
                     Benefits to Cost Ratio




                                              2.00

                                                                         1.73
                                              1.00
                                                                  1.00

                                              0.00

                                                        2005 Target   2005 Actual




                                                                                              8
APG 1.0.4 – Disposition 80 percent of recommendations within 12 months of
report issuance or 95 percent of recommendations within 24 months of report
issuance
As shown in the graph below, we substantially met this goal. This assessment of
goal performance was based on substantially meeting the 24-month criteria as
explained below. Satisfaction of one of the two criteria was needed to meet or
substantially meet the goal.
12-Month Criteria: Attaining the 80 percent goal required dispositioning 122 of
the 153 recommendations contained in FY 2004 reports. Ninety-three, or 61
percent, of these recommendations were dispositioned within 12 months of report
issuance. Eight recommendations were not dispositioned within 12 months of
report issuance and 52 were not dispositioned. Thirteen of the recommendations
not dispositioned or not dispositioned timely were being reviewed by our office.
If our office completed action on these recommendations, we would have
dispositioned a total of 106 recommendations (69 percent), a number that falls
under the thresholds of meeting (80 percent) or substantially meeting (72 percent)
the goal. Therefore, this portion of the goal was neither met nor substantially met.
24-Month Criteria: Attaining the 95 percent goal required dispositioning 276 of
the 290 recommendations contained in reports issued from April 1, 2002 to
September 30, 2003 (April 1, 2002 is when dispositioning actions began). We
dispositioned 266, or 92 percent, of these recommendations within 24 months of
report issuance. Of the remaining 24 recommendations, 3 were dispositioned
after 24 months of report issuance and 21 were not dispositioned. To
substantially meet this goal, 86 percent to 94 percent of the recommendations
needed to be dispositioned within 24 months. Therefore, at 92 percent, we
substantially met this portion of the goal.

                              Substantially Met


                     Percentage of Recommendations Dispositioned
                               As of September 30, 2005


                100%
                                                95%    92%
                 80%
                           80%
                 60%
                                 61%
                 40%
                 20%
                  0%
                         Within 12 Mos        Within 24 Mos

                                   Target     Actual




                                                                                   9
APG 1.0.5 – Achieve a level of FDIC senior executive client satisfaction with the
audit function 5 percent above the level achieved in the client survey for 2004
We did not meet this goal. Due to significant changes in the client survey
methodology in 2005, a quantitative assessment of performance against this goal
was not possible. Therefore, our determination of goal achievement was based on
a qualitative assessment of responses in the 2005 client survey report. Based on
this assessment, we concluded that the goal, or more accurately the intent of the
goal (i.e., to improve client satisfaction with the audit function) was not met. For
example, a greater percentage of senior level executives rated the overall value of
the audit function negatively in 2005 (30%) than they did in 2004 (8%). Further,
a smaller percentage of senior executives rated the overall value of the audit
function positively in 2005 (18%) than they did in 2004 (38%). A similar
response pattern existed for the second-tier level executives (52% rated the audit
function negatively in 2005 versus 17% in 2004 and 20% rated the audit function
positively in 2005 versus 40% in 2004.)
The graph below shows client satisfaction ratings for the audit function from 1998
to 2004.



                                                              Client Satisfaction Ratings
                                                                     Audit Function
                                                                      (1998-2004)
                                            4.00
               Client Satisfaction Rating




                                            3.00
                                                                    2.67
                                                             2.60          2.50           2.65 2.51
                                            2.00                                   2.32


                                            1.00


                                            0.00
                                                           1998     1999    2000      2001    2003    2004



                                                   Note: Due to the abbreviated transition year period,
                                                   a client survey was not conducted in 2002.




                                                                                                             10
APG 1.0.6 – Achieve a level of FDIC senior executive client satisfaction with the
evaluation function 5 percent above the level achieved in the client survey for
2004
For performance reporting purposes, we combined this goal with the client
satisfaction goal for the audit function (APG 1.0.5).
The graph below shows prior years’ (1999-2004) client satisfaction ratings for the
evaluation function.


                                                       Client Satisfaction Ratings
                                                           Evaluation Function
                                                               (1999-2004)
                                         4.00
                                                                       3.78
            Client Satisfaction Rating




                                                         3.50
                                         3.00                   3.22                  3.03
                                                                               2.72
                                         2.00


                                         1.00


                                         0.00
                                                        1999    2000    2001     2003        2004




                                           Note: Due to the abbreviated transition year period, a
                                           client survey was not conducted in 2002.




                                                                                                    11
APG 1.0.7 – 80 percent of closed cases will result in either reports to
management, criminal convictions, civil actions, administrative actions, or a
combination of these elements
As shown in the following graph, we met this goal. For the fiscal year, 31 of 38
closed cases, or 82 percent, resulted in either reports to management, criminal
convictions, civil actions, administrative actions, or a combination of these
elements. This percentage is above the target level of 80 percent.

                                             Met

                            Percentage of Closed Investigation Cases
                                   Having Significant Results
                                            FY 2005

                    100%

                     80%
                                           80%     82%
                     60%

                     40%

                     20%

                      0%


                                   2005 Target      2005 Actual




APG 1.0.8 – 70 percent of cases accepted for prosecution will result in
convictions, pleas, and/or settlements
As shown in the following graph, we met this goal. For the fiscal year, 16 of 20
cases (80 percent) that had been accepted for prosecution and closed in FY 2005
resulted in convictions, pleas, and/or settlements. This percentage is above the
target of 70 percent.

                                              Met

                             Percentage of Cases Accepted For Prosecution
                             Resulting in Convictions, Pleas, or Settlements
                                                FY 2005


                     100%

                      80%

                      60%                           80%
                                            70%
                      40%

                      20%

                       0%


                                     2005 Target     2005 Actual

                                                                                   12
APG 1.0.9 – Attain a minimum ratio of 6 to 1 of financial benefits to
investigative cost dollars
As shown in the graph below, we did not meet this goal. During the fiscal year,
investigative financial benefits were $29,449,552 and investigative operating costs
were $7,842,849 for a benefit-to-cost ratio of 3.75 to 1 (or a return of $3.75 for each
dollar spent). This ratio is below the target ratio of 6 to 1. This goal was not met
because some investigations that were expected to be closed have been held up in
the courts preventing court ordered monetary recoveries from taking place during
this reporting period. (Note: For purposes of this goal, Office of Investigations
operating costs are based on outlays during the reporting period, and do not include
an allocation of outlays of other OIG components and certain OIG-wide non-
recurring expenses.)


                                                             Not Met


                                                Ratio of Office of Investigations Financial
                                                       Benefits to Operating Costs
                                                                  FY 2005

                                               8.00
                      Benefits to Cost Ratio




                                               6.00
                                                                   6.00
                                               4.00
                                                                            3.75
                                               2.00

                                               0.00

                                                         2005 Target      2005 Actual




                                                                                              13
APG 1.0.10 – Achieve a level of FDIC senior executive client satisfaction with
the investigation function of 3.2 or higher
We did not meet this goal. Due to significant changes in the client survey
methodology in 2005, a quantitative assessment of performance against this goal
was not possible. Therefore, our determination of goal achievement was based on
a qualitative assessment of responses in the 2005 client survey report. Based on
this assessment, we concluded that the goal, or more accurately the intent of the
goal (i.e., to improve client satisfaction with the investigation function) was not
met. For example, a greater percentage of senior level executives rated the
overall value of the investigation function negatively in 2005 (14%) than they did
in 2004 (13%). More significantly, a smaller percentage of senior executives
rated the overall value of the investigation function positively in 2005 (58%) than
they did in 2004 (88%). A similar response pattern existed for the second-tier
level executives (17% rated the investigation function negatively in 2005 versus
7% in 2004 and 58% rated the investigation function positively in 2005 versus
66% in 2004.)
The graph below shows prior years’ (1999-2004) client satisfaction ratings for the
investigation function.


                                                            Client Satisfaction Ratings
                                                              Investigation Function
                                                                    (1999-2004)

                                         4.00
            Client Satisfaction Rating




                                         3.00                                             3.25
                                                           3.19           3.10
                                                                   3.00           2.98

                                         2.00


                                         1.00


                                         0.00
                                                            1999   2000    2001    2003     2004




                                                Note: Due to the abbreviated transition year period, a
                                                client survey was not conducted in 2002.




                                                                                                         14
APG 1.0.11 – Provide useful information and analysis on corporate risks,
planning, performance, policies, and directives within timeframes that are
responsive to corporate needs
We met this goal. OIG efforts during the fiscal year in support of this goal include
the following:
•   Provided the Corporation with the OIG’s assessment of the most significant
    management and performance challenges facing the FDIC, in the spirit of the
    Reports Consolidation Act of 2000.
•   Reviewed FDIC's bundling of IT application contracts for the Information
    Technology Application Service procurement and reviewed whether FDIC
    was following established acquisition policy in soliciting bids and establishing
    evaluation panels.
•   Reviewed and provided comments to the Division of Information Technology
    (DIT), at their request, on the FDIC's sensitivity assessment questionnaire,
    which is used to categorize FDIC's information systems.
•   Conducted a follow-up evaluation of the FDIC’s Corporate Planning Cycle,
    which included assessing the Annual Performance Plan process, the Corporate
    Performance Objectives process, and the corporate budgeting process.
•   Reviewed and provided comments to the Government Accountability Office
    on the internal control portion of their opinions on the FDIC’s 2004 financial
    statements.
•   Advised the Corporation of areas of high vulnerability and those warranting
    continued monitoring for the Corporation’s preparation of its 2004 Statement
    on Internal Accounting and Administrative Controls.
•   Responded to the Corporation's solicitation of comments for proposed
    changes to audit and reporting requirements for insured institutions.
•   Worked closely with the FDIC in developing presentations on lessons
    learned/red flags based on the OIG’s experience in investigating major fraud
    at financial institutions. Also, at the request of the Division of Supervision
    and Consumer Protection (DSC), provided input for a presentation DSC was
    developing on fraud and pursuing 8e enforcement actions.
•   Continued to coordinate extensively with DSC, Legal Division, and DIT
    officials to establish appropriate processes in addressing cyber crimes,
    including computer intrusion, phishing and spoofing schemes, as well as
    investigations of computer misuse by FDIC employees and contractors. Also
    continued to work with these officials on developing procedures for
    preserving electronic media during bank closings.




                                                                                       15
•   Developed and gave a presentation highlighting an investigation that
    originated from FDIC’s review of complaints by consumers who received a
    false email that appeared to have been sent by FDIC.
•   Reviewed 35 proposed policies and directives and provided five policy
    suggestions to FDIC management in the areas of training and development,
    the Privacy Counterparts Group, and IT Security Risk Management.
•   Provided advisory comments to management on the drafts of the FDIC 2004
    Annual Report and 2005 Annual Performance Plan.
•   Provided an informational analysis of the linkage of the Government
    Performance and Results Act (GPRA) performance goals and the Chairman’s
    corporate performance objectives to assist the Corporation in any future
    efforts to integrate the two.




                                                                               16
Strategic Goal 2: Communications Between OIG and
Stakeholders Will be Effective
Overall, we met or substantially met six of our seven performance goals under
Strategic Goal 2. The seven goals are further discussed below.

   APG 2.1.1 – Promote effective corporate communications and relations by
   sponsoring or actively participating in various activities, including quarterly
   meetings, conferences, seminars, task forces, and training
   We met this goal. OIG executives and staff were involved in the following efforts
   and activities during the fiscal year in support of this goal:
   •   Participated in various activities related to our audit work including quarterly
       meetings with division directors to discuss current and planned audits and
       ongoing work as well as new developments within their divisions; organizing and
       providing a TeamMate demonstration to staff of the Division of Supervision and
       Consumer Protection’s Internal Control and Review Section who are considering
       electronic working papers for their office; and participating in an advisory
       capacity on the FDIC's Chief Information Officer’s Council and the Audit
       Committee's IT Security Committee.
   •   Cosponsored an Emerging Issues in Banking symposium along with the
       Federal Reserve Board and Department of Treasury OIGs to hear from
       leading experts about emerging issues that impact our collective and
       individual work and responsibilities.

   •   Participated in several activities related to information technology and
       resources including the FDIC E-Government Working Group and the New
       Financial Environment meetings to plan and facilitate the transition to a new
       FDIC-wide financial reporting system.

   •   Engaged in a number of activities related to our investigative work: issued
       quarterly reports to the Division of Supervision and Consumer Protection
       (DSC), the Division of Resolutions and Receiverships (DRR), the Legal
       Division, and the Chairman’s Office on activity and results of our
       investigations involving closed and open banks, assets, and debt cases; met
       quarterly with DRR and the Legal Division’s Financial Crimes Unit to review
       ongoing cases of interest and coordinated routinely with these offices with
       respect to bank closings, concealment of assets cases, and restitution orders;
       met quarterly with the DSC’s Special Activities Section to coordinate closely
       on cases involving fraud at open or closed institutions; and provided a briefing
       to the FDIC’s Ethics Office on issues of concern arising from employee cases.




                                                                                       17
•   Conducted a number of investigative outreach and related activities as follows:
    visited regional offices on several occasions during the year to meet with DSC
    management and discuss investigative cases and issues of mutual concern; OI
    field agents continue to make regular visits to DSC field offices to provide an
    overview of OI operations; and gave case-study presentations at DSC regional
    training conferences, Federal Financial Institutions Examination Council
    seminars, and the Legal Division’s Fraud Conference.
•   The Electronic Crimes Unit (ECU) participated in a number of activities this
    reporting period: hosted an open house and provided demonstrations of ECU
    equipment and forensic software to FDIC executives and their staff; provided
    a case presentation on a phishing scheme to the Vice Chairman and other
    senior FDIC officials; coordinated extensively with Division of Information
    Technology and other agency officials to establish appropriate processes in
    addressing cyber crimes, including computer intrusion, phishing, and spoofing
    schemes, as well as investigations of computer misuse by FDIC employees
    and contractors; and worked with FDIC officials on developing procedures for
    preserving electronic media at bank closings.
•   Participated in activities with other financial regulatory agency staff: quarterly
    meetings with the Assistant Inspectors General for Audits of other financial
    regulators; and attended two quarterly meetings of the FSLIC Resolution
    Fund’s Dissolution Task Force.
•   Engaged in a number of communications and other initiatives around the
    Corporation: provided OIG Weekly Highlights Reports to the Chairman; attended
    the FDIC senior management leadership conference in February 2005; and held
    monthly meetings with the Division of Administration to stay abreast of FDIC-
    wide human resource issues and how they impact the OIG.




                                                                                      18
APG 2.1.2 – Achieve a level of FDIC senior executive client satisfaction with
OIG communications efforts 5 percent above the level achieved in the client
survey for 2004
We met this goal. Due to significant changes in the client survey methodology in
2005, a quantitative assessment of performance against this goal was not possible.
Therefore, our determination of goal achievement was based on a qualitative
assessment of responses from senior executives in the 2005 client survey report.
Based on this assessment, we concluded that the goal, or more accurately the
intent of the goal (i.e., to improve client satisfaction with OIG communications)
was met. We noted that a greater percentage of FDIC senior executives
responded positively than negatively to the general survey questions related to
communications. For example, 59% of senior executives agreed or strongly
agreed that they received adequate communication when the OIG provides
Congress with reports and information affecting the executives’ area of
responsibility compared to only 12% who disagreed with this statement. Also,
56% of senior executives indicated they were satisfied or very satisfied with their
interactions (communications) with the IG, Acting IG, and Deputy IG during the
past year compared with only 11% of executives who were dissatisfied.
The graph below shows prior years’ (1999-2004) client satisfaction ratings for
OIG communications efforts.



                                                            Client Satisfaction Ratings
                                                            OIG Communication Efforts
                                                                    (1998-2004)

                                              4.00
                Client Satisfaction Rating




                                              3.00
                                                                                        3.02
                                                                     2.62 2.69                 2.70
                                              2.00                               2.19


                                              1.00            1.26


                                              0.00
                                                     1998     1999     2000      2001      2003       2004




                                             Note: Due to the abbreviated transition year period, a
                                             client survey was not conducted in 2002.




                                                                                                             19
APG 2.2.1 – Meet with House and Senate Oversight Committees twice a year

We met this goal. During the fiscal year, the OIG had five separate meeting with
congressional staff. In January 2005, we briefed the Senate Committee on
Banking, Housing, and Urban Affairs on the results of a review the Committee
Chairman requested of FDIC's supervision of Bank Secrecy Act activities at a
state non-member bank. In late April and early May 2005, we met with staff from
the House and Senate Appropriations subcommittees, respectively, who were
responsible for the OIG's FY 2006 Appropriation Request. These meetings were
critical since the House and Senate reorganized the responsibilities of its
Appropriations subcommittees earlier in the year. In June 2005, the Acting IG
briefed staff from the House Financial Services and Senate Banking, Housing and
Urban Affairs Committees and shared information on completed audits,
evaluations and investigations, and ongoing OIG initiatives. During these
briefings, we also highlighted information on ongoing and planned reviews that
may be of interest to the Congress. Throughout the year, we periodically sent
informational emails to House and Senate oversight committee staff members to
alert them of the online availability of selected reports.
APG 2.2.2 – Develop transparent protocols for Congressional communications
We met this goal. The OIG developed and adopted on an interim basis a set of
congressional protocols to govern relations with the Congress and commitments
to FDIC management. The OIG plans to discuss the protocols with congressional
committee staff and FDIC management in the future.
APG 2.3.1 – The OIG Employee Advisory Group will meet three times a year to
serve as facilitator of communications among OIG staff and as a channel to
advise OIG management regarding employee relations
We met this goal. The OIG Employee Advisory Group (EAG) met with the
Acting Inspector General on three occasions during the year – in March, June, and
September. The EAG discussed a number of issues of employee concern
including OIG staffing and budget, field office closings, the Contribution-based
Compensation System, the FDIC’s Corporate Employee Program, the status of a
new Inspector General, and the OIG’s efforts to assist hurricane victims along the
Gulf Coast. Results of the EAG meetings were posted to the OIG’s intranet
website to keep OIG staff informed.
APG 2.3.2 – Based on an evaluation of the OIG’s FY 2004 Employee Survey
results, establish future quantitative targets for improving overall ratings
We did not meet this goal. We had planned on addressing potential future
employee survey targets as a part of the overall OIG FY 2006 performance
planning process; however, the plans changed due to significant OIG downsizing
and reorganization initiatives. The use of employee surveys in the future will be
considered as part of our revised strategic planning process.



                                                                                20
APG 2.4.1 – Promote effective communications and relations with other OIG
stakeholders to include participating in PCIE activities and meeting quarterly
with other federal regulators and representatives of the U.S. Government
Accountability Office (GAO)

We met this goal. During the first 3 months of the performance period, the
Inspector General served as the President’s Council on Integrity and Efficiency
(PCIE) Vice Chair, chaired monthly Council meetings and welcomed guest
speakers from OMB, GAO, the Administration, and individual OIGs to discuss
issues related to the IG community. In support of this responsibility, we
continued such routine activities as preparing agendas, minutes, and issues for
monthly PCIE and quarterly Executive Council on Integrity and Efficiency
(ECIE) meetings, circulating correspondence to members to facilitate
communications, and monitoring the activities of the various PCIE committees
and related organizations. We also prepared the data call for the PCIE and
ECIE’s FY 2004 Progress Report to the President, assisted with the annual
PCIE/ECIE awards program, and represented the PCIE by speaking at various
conferences, meetings, and foreign visitor programs. With the retirement of the
Inspector General, the Vice Chair responsibilities moved to another OIG. During
the transition, we have worked with the new Vice Chair’s office to transfer
responsibilities.
Other OIG efforts during FY 2005 in support of this goal include the following:
•   Participated in monthly PCIE Government Performance and Results Act
    (GPRA) Roundtable Meetings regarding current GPRA-related issues.
•   Responded to PCIE requests for information related to the PCIE SkillSoft
    training program and a survey concerning the IG community’s legislative
    proposals.
•   Participated in the development and attended the annual Institute of Internal
    Auditor’s Auditing in Government Conference, the theme of which was
    “Changing Worlds.”
•   Interacted with the Treasury/IRS OIG to develop criteria for government
    losses resulting from the failure to issue Forms 1099.
•   Assisted the National Credit Union Administration OIG in obtaining and
    understanding information on the FDIC external website.
•   Played an active role in the Federal Audit Executive Council (FAEC),
    including chairing the Information Technology Security Committee,
    organizing the annual FAEC conference in April, presenting information-
    related topics to members of the PCIE, and hosting an interagency meeting of
    the FAEC’s Information Technology Security Committee.




                                                                                    21
•   Made presentations to the Washington Chapter of the Information Systems
    Audits and Controls Association on information technology and other related
    issues.
•   Held quarterly meetings with financial regulatory Assistant Inspectors General
    to share best practices and ideas on issues of mutual concern.
•   Received recognition at the PCIE awards ceremony for work conducted on the
    Bank Secrecy Act (BSA).
•   Met with GAO to assist in their reviews of BSA activities and the supervision
    of Industrial Loan Corporations.
•   Attended meetings of the PCIE Inspection and Evaluation Roundtable.
•   Made a presentation at the Institute of Internal Auditor’s Technology
    Conference in San Francisco.
•   Attended the annual OIG Directors of Investigations conference.
•   Participated in meetings of the Interagency Bank Fraud Working Group in
    headquarters and the regions.
•   Participated in a PCIE working group examining the use of computer banners
    on OIG computers.
•   Attended meetings of the Council of Counsels of Inspectors General.
•   Sponsored meetings of the Banking Counsels of IGs.
•   Participated in meetings with the Office of the Comptroller of the Currency,
    the Federal Reserve Board, and the National Credit Union Administration to
    determine possible collaborative work dealing with the banking regulators’
    handling of Hurricane Katrina efforts.
•   Attended meetings of the PCIE/ECIE Homeland Security Roundtable.
•   Participated in meetings of the Department of Justice Hurricane Katrina Fraud
    Task Force.




                                                                                   22
Strategic Goal 3: OIG Will Align Its Human Resource to
Support the OIG Mission
Overall, we met or substantially met all three of our performance goals under
Strategic Goal 3. The three goals are further discussed below.

   APG 3.2.1 – 90 percent of OIG staff will complete at least 16 hours/CPEs of
   training related to the OIG non-technical core competencies

   As shown in the graph below, we substantially met the goal. During the year, 111 of
   135 OIG employees, or 82 percent, completed at least 16 hours of continuing
   professional education (CPE) training related to the OIG’s non-technical core
   competencies. Although this percentage is below the of 90 percent level needed for
   meeting the goal, it is above the 81 percent level needed for substantially meeting the
   goal.

                                          Substantially Met

                                 Percentage of OIG Staff Meeting Non-Technical
                                         Core Competencies Training
                                                   FY 2005


                          100%

                           80%
                                               90%
                                                        82%
                           60%

                           40%

                           20%

                            0%


                                        2005 Target     2005 Actual




                                                                                        23
APG 3.2.2 – Offer mentoring opportunities to entry level staff and new supervisors in
a pilot program
We met this goal. The OIG Mentoring Program for new employees and supervisors
was approved by the Acting IG on September 29, 2005. On September 30, 2005, the
program was announced to all OIG staff. The application to become a mentoree will
be sent out via email and further information on the program will be posted on the
OIG’s intranet.
APG 3.4.1 – Provide advisory information and training sources to OIG managers
and staff about enhancing the quality and mutual participation in performance
feedback communications
We met this goal. We constructed and announced the "Feedback Forum" on the
OIG’s intranet, which provides current articles and information on providing and
receiving feedback. In addition, we prepared a matrix of courses that are available
through the Corporate University's online course catalogue. The matrix relates each
online course to the appropriate OIG core competency and includes many courses
that address feedback and communication processes.




                                                                                    24
Strategic Goal 4: OIG Will Effectively Manage Its Resources
Overall, we met or substantially met 15 of our 17 performance goals under Strategic
Goal 4. These goals are further discussed below.

   APG 4.1.1 – Develop an enterprise risk management framework for the OIG that
   will provide an integrated organization-wide, strategic approach to measuring
   and managing OIG’s risks in order to maximize OIG’s value and help ensure
   strategic goals are achieved

   We substantially met this goal. Development of an OIG Enterprise Risk
   Management (ERM) Framework was envisioned as a multiyear initiative and
   significant progress was made this year. First, significant research and analysis
   was completed building on the Enterprise Risk Management Framework issued in
   September 2004 by the Committee of Sponsoring Organizations of the Treadway
   Commission (COSO) as well as the related COSO Internal Control Framework,
   and other ERM best practices including consideration of the Sarbanes-Oxley Act.
   Secondly, OIG executives developed a common understanding of the need and
   benefits of enhancing the OIG's overall risk assessment and management and
   have begun outlining a future course of action to integrate ERM with the OIG’s
   strategic planning, audit planning, and budget processes.




                                                                                   25
APG 4.1.2 – Achieve an average of 180 calendar days to produce final audit and
evaluation reports

As shown in the graph below, we did not meet this goal. The average elapsed
days to issue the 40 audit and evaluations reports in FY 2005 was 225 days, which
is 45 days more than the target. While we did not meet the goal this year, the
Office of Audits has achieved significant efficiencies in the assignment
management process over the last several years. In FY 2003 and 2004, we
exceeded our goals for average elapsed days to issue final reports by achieving
averages well below the targets of 273 and 200 days, respectively. However, in
FY 2005, while we met the goals for issuing reports covering all management and
performance challenges and the goal for producing an average of 2.5 reports per
team, staff attrition resulted in resource gaps for ongoing assignments that
contributed to a higher than expected average elapsed days to issue our audit and
evaluation reports.


                                                Not Met

                                     Average Elapsed Days to Issue Audit and
                                               Evaluation Reports
                                                    FY 2005

                                    250

                                    200                       225
                     Elapsed Days




                                    150               180

                                    100

                                    50

                                     0

                                            2005 Target     2005 Actual




                                                                               26
APG 4.1.3 – 70 percent of active cases that have been open over 1 year will be
referred and accepted for prosecution
As shown in the following graph, we met this goal. Of 61 active cases that have
been open over one year as of September 30, 49 cases or 80 percent have been
referred and accepted for prosecution. This percentage is above the target of 70
percent for meeting the goal.

                                           Met

                              Percentage of Cases Over One Year Old
                              Referred and Accepted for Prosecution
                                     as of September 30, 2005

                 100%

                  80%

                  60%                           80%
                                         70%
                  40%

                  20%

                   0%


                                  2005 Target    2005 Actual




APG 4.1.4 – 100 percent of employee cases that have either no criminal
prosecution potential or have been declined for prosecution will be completed in
less than 6 months

As shown in the following graph, we met this goal. During the fiscal year, 1 of 1
employee cases (100 percent) that had either no criminal prosecution potential or
had been declined for prosecution were completed in less than 6 months. This
percentage is equal to the target of 100 percent.

                                                Met

                                 Percentage of Employeee Cases With No
                              Prosecution Potential Completed in Less Than 6
                                                 Months
                                                 FY 2005

                    100%
                                             100% 100%
                        80%

                        60%

                        40%

                        20%

                        0%

                                       2005 Target    2005 Actual


                                                                                   27
APG 4.1.5 – 90 percent of investigative reports will be issued within 30 days,
and 100 percent of investigative reports will be issued within 60 working days,
after completion of the case
As shown in the following graph, we met this goal. During the fiscal year, 38
Reports of Investigation were issued. All 38 reports, or 100 percent, were issued
within 30 working days of case completion.

                                             Met

                            Percentage of Investigation Reports Issued Within
                                       Establisheed Timeframes
                                                 FT 2005



                    100%
                                     100%                100%     100%
                    80%     90%

                    60%

                    40%

                    20%

                     0%
                            Within 30 Days               Within 60 Days

                                    2005 Target       2005 Actual




                                                                                  28
APG 4.1.6 – 140 investigative actions will result from OI cases during the year

As shown in the graph below, we substantially met this goal. During the fiscal
year, 130 actions resulted from investigative cases. This is below the target of
140 actions for meeting the goal, but above the target of 126 actions for
substantially meeting the goal.



                                                   Substantially Met


                                              Number of Investigation Actions
                                                         FY 2005



                                            140
                        Number of Actions




                                            120
                                                           140
                                            100                    130
                                            80
                                            60
                                            40
                                            20
                                             0


                                                  2005 Target    2005 Actual




                                                                                   29
      APG 4.1.7 – 70 percent of investigative resources will be dedicated directly to
      working investigations
      As shown in the following graph, we did not meet this goal. During the fiscal
      year, 61 percent of investigative resources were dedicated directly to working
      investigations. This percentage is below the target of 70 percent. We did not
      meet this goal due to the turnover of investigative staff resulting in less staff
      hours, initially, devoted to investigative work. Further, implementation of
      improved tracking and better management reviews of time dedicated to
      investigative work was not accomplished until the last six months of the fiscal
      year.

                                            Not Met

                             Percentage of Investigatve Resources Dedicated
                                   Directly to Working Investigations
                                                 FY 2005


                      100%

                       80%

                       60%                 70%
                                                     61%
                       40%

                       20%

                        0%


                                     2005 Target     2005 Actual




      APG 4.1.8 – The Electronic Crimes Unit will provide an action plan and
      preliminary analysis of computer media examined within 30 days of receipt of
      requests for computer forensic support
      We met this goal. The Electronic Crimes Unit received four field requests for
      forensic support during the year and on each occasion provided an action plan and
      preliminary analysis of computer media examined within 30 days of receipt of the
      request.

N/A   APG 4.1.9 – The Electronic Crimes Unit will respond to 100 percent of bank
      closings where fraud is suspected and OI special agents are participating
      This goal is not applicable because there were no bank failures during the
      reporting period.


                                                                                          30
APG 4.1.10 – OIG Hotline information will be reviewed and a determination
made as to a course of action within an average of 7 business days
As shown in the following graph, we met this goal. During the fiscal year, 119
Hotline cases were reviewed and a determination made as to a course of action on
an average of 5.9 business days. This is below the target of 7 business days.

                                                   Met


                                      Average Elapsed Days to Process OIG
                                              Hotline Information
                                                    FY 2005

                                     10

                                      8
                      Elapsed Days




                                      6
                                                     7
                                      4                       5.9

                                      2

                                      0


                                          2005 Target    2005 Actual




APG 4.1.11 – Legal services are provided within applicable timeframes
100 percent of the time
As shown in the following graph, we met this goal. During the fiscal year, legal
services (subpoenas, Freedom of Information Act and Privacy Act requests, and
reviews of legislation, regulations, FDIC and OIG procedures) were provided by
the Counsel’s Office on 41 occasions. One hundred percent of these legal
services were provided within applicable timeframes.

                                                        Met


                                     Percentage of Legal Services Provided Within
                                               Applicable Timeframes
                                                       FT 2005



                   100%
                                                  100%     100%
                    80%

                    60%

                    40%

                    20%

                    0%


                                            2005 Target       2005 Actual




                                                                                    31
APG 4.1.12 – Improve the efficiency and effectiveness of the investigations data
system and OIG training system with enhanced technology and design
We substantially met this goal. A new web-based Investigations Data System
(IDS) was designed and developed during fiscal year 2005 that will significantly
improve the previous system's availability and performance through improved
technology. The new IDS began user testing during September 2005 and is
expected to be implemented during the first quarter of fiscal year 2006.
IDS was the majority of the work under this goal. The work on the training
system was reprioritized to completing IDS development and to other OIG
activities.
APG 4.1.13 – Improve the efficiency and quality of the OIG’s intranet, OIGNet

We met this goal. On February 28, 2005, we launched the redesigned OIGNet
website. This was the third version of OIGNet and it added new forms to the
Audit Forms page and the 2004 OIG Awards data. In addition, it provides better
access to OIG-wide information.
APG 4.2.1 – Develop an OIG-wide Quality Assurance Framework to document
the process in place to ensure that OIG work meets the highest standards of
quality
We met this goal. We established a high-level quality assurance framework built
around the PCIE’s Quality Standards for Federal Offices of Inspectors General
("Silver Book"). The Silver Book sets forth 9 general quality standards consisting
of 29 quality components for the management, operation, and conduct of the work
of Federal OIGs. The quality assurance framework comprehensively documents
an assessment of the FDIC OIG's policies and procedures relative to the IG
community's quality standards.
APG 4.2.2 – Issue 4 quality control review reports that, collectively, cover
reports issued by each of the audit and evaluation line directorates
We met this goal. We issued six quality control review (QCR) reports in fiscal
year 2005. Collectively these QCRs cover reports issued by the six audit and
evaluation line directorates.




                                                                                 32
APG 4.2.3 – Disposition 100 percent of Office of Audit quality control review
recommendations within 6 months of report issuance
As shown in the graph below, we met this goal. One quality control review
(QCR) report was issued on January 7, 2005 and contained seven
recommendations. All seven of these recommendations were dispositioned within
six months of report issuance. The six-month time period for dispositioning
recommendations in the remaining five QCR reports has not expired.

                                       Met


                              Percentage of Office of Audit QCR
                           Recommendations Dispositioned Within 6
                                 Months of Report Issuance
                                          FY 2005

                    100%
                                     100%     100%
                     80%

                     60%

                     40%

                     20%

                      0%

                               2005 Target     2005 Actual




APG 4.2.4 – Achieve a result of zero (0) material instances of noncompliance
with Government Auditing Standards as identified in quality control reviews
We met this goal. The six quality control review reports issued in FY 2005
reported no material instances of noncompliance with the Government Auditing
Standards.
APG 4.2.5 – Conduct internal operational reviews of the three major
investigative offices every 12 months and resolve significant matters identified
We met this goal. During the fiscal year all three major investigative offices had
internal control reviews completed. Included in the reviews were the Western
Region Dallas and Chicago Offices, Eastern Region Atlanta and Washington
Offices, the Electronic Crimes Unit, and the Special Investigations and Operations
Division. Also, a review was completed pertaining to the OI Hotline operations.




                                                                                   33
                           Detail Listing of
             Annual Performance Goal Accomplishment

       FY 2005 Annual Performance Goal                          FY 2005 Goal     FY 2004 Goal
              (By Strategic Goal)                              Accomplishment   Accomplishment



Key:           Goal Met                        Goal Substantially Met            Goal Not Met

Strategic Goal 1: OIG Products Will Add Value by Achieving Significant Impact

APG 1.0.1 – Issue audit and evaluation reports
covering all 7 OIG-identified risk-based management
and performance challenges (MPC)
APG 1.0.2 – Issue an average of 2.5 reports per
                                                                                     N/A
team
APG 1.0.3 – Maintain a ratio of monetary benefits to
Office of Audits operating costs of at least $1.00 to                                N/A
$1.00, as measured over a 3-year period
APG 1.0.4 – Disposition 80 percent of
recommendations within 12 months of report
issuance or 95 percent of recommendations within
24 months of report issuance
APG 1.0.5 – Achieve a level of FDIC senior executive
client satisfaction with the audit function 5 percent
above the level achieved in the client survey for 2004
APG 1.0.6 – Achieve a level of FDIC senior executive
client satisfaction with the evaluation function 5 percent      Combined with
above the level achieved in the client survey for 2004            APG 1.05

APG 1.0.7 – 80 percent of closed cases will result in either
reports to management, criminal convictions, civil actions,
administrative actions, or a combination of these elements

APG 1.0.8 – 70 percent of cases accepted for prosecution
will result in convictions, pleas, and/or settlements
APG 1.0.9 – Attain a minimum ratio of 6 to 1 of
financial benefits to investigative cost dollars
APG 1.0.10 – Achieve a level of FDIC senior executive
client satisfaction with the investigation function of 3.2
or higher




                                                                                           34
      FY 2005 Annual Performance Goal                        FY 2005 Goal     FY 2004 Goal
             (By Strategic Goal)                            Accomplishment   Accomplishment

APG 1.0.11 – Provide useful information and analysis
on corporate risks, planning, performance, policies, and
directives within timeframes that are responsive to
corporate needs

Strategic Goal 2: Communications between the OIG and the Chairman, the Congress,
employees, and other stakeholders will be effective

APG 2.1.1 – Promote effective corporate
communications and relations by sponsoring or actively
participating in various activities including quarterly
meetings, conferences, seminars, task forces, and
training

APG 2.1.2 – Achieve a level of FDIC senior executive
client satisfaction with OIG communications efforts 5
percent above the level achieved in the client survey for
2004

APG 2.2.1 – Meet with House and Senate Oversight
Committees twice a year

APG 2.2.2 – Develop transparent protocols for
                                                                                  N/A
Congressional communications

APG 2.3.1 – An OIG Employee Advisory Group will
meet three times a year to serve as facilitator of
communications among OIG staff and as a channel to
advise OIG management regarding employee relations

APG 2.3.2 – Based on an evaluation of the OIG’s FY
2004 Employee Survey results, establish future                                    N/A
quantitative targets for improving overall ratings

APG 2.4.1 – Promote effective communications and
relations with other OIG stakeholders to include
participating in PCIE activities and meeting quarterly
with other federal regulators and representatives of the
U.S. Government Accountability Office

Strategic Goal 3: The OIG will align its human resources to support the OIG mission

APG 3.2.1– 90 percent of OIG staff will complete at
least 16 hours/CPEs of training related to the OIG non-
technical core competencies

APG 3.2.2 – Offer mentoring opportunities to entry                                N/A


                                                                                        35
      FY 2005 Annual Performance Goal                        FY 2005 Goal     FY 2004 Goal
             (By Strategic Goal)                            Accomplishment   Accomplishment
level staff and new supervisors in a pilot program

APG 3.4.1 – Provide advisory information and training
sources to OIG managers and staff about enhancing the
                                                                                  N/A
quality and mutual participation in performance
feedback communications

Strategic Goal 4: The OIG will effectively manage its resources
APG 4.1.1 – Develop an enterprise risk management
framework for the OIG that will provide an integrated
organization-wide, strategic approach to measuring and
managing the OIG’s risks in order to maximize the
OIG’s value and help ensure strategic goals are
achieved

APG 4.1.2 – Achieve an average of 180 calendar days
to produce final audit and evaluation reports

APG 4.1.3 – 70 percent of active cases that have been
open over 1 year will be referred and accepted for
prosecution
APG 4.1.4 – 100 percent of employee cases that have
either no criminal prosecution potential or have been
declined for prosecution will be completed in less than
6 months
APG 4.1.5 – 90 percent of investigative reports will be
issued within 30 days, and 100 percent of investigative
reports will be issued within 60 working days, after
completion of the case
APG 4.1.6 – 140 investigative actions will result from
OI cases during the year

APG 4.1.7 – 70 percent of investigative resources will
                                                                                  N/A
be dedicated directly to working investigations

APG 4.1.8 – The Electronic Crimes Unit will provide an
action plan and preliminary analysis of computer media
examined within 30 days of receipt of requests for
computer forensic support
APG 4.1.9 – The Electronic Crimes Unit will respond to
100 percent of bank closings where fraud is suspected and        N/A
OI special agents are participating
APG 4.1.10 – OIG Hotline information will be reviewed
and a determination made as to a course of action within

                                                                                        36
      FY 2005 Annual Performance Goal                          FY 2005 Goal     FY 2004 Goal
             (By Strategic Goal)                              Accomplishment   Accomplishment
an average of 7 business days
APG 4.1.11 – Legal services are provided within
applicable timeframes 100 percent of the time
APG 4.1.12 – Improve the efficiency and effectiveness of
the investigations data system and OIG training system                              N/A
with enhanced technology and design
APG 4.1.13 – Improve the efficiency and quality of the
                                                                                    N/A
OIG’s intranet, OIGNet
APG 4.2.1 – Develop an OIG-wide Quality Assurance
Framework to document the process in place to ensure that
OIG work meets the highest standards of quality
APG 4.2.2 – Issue 4 quality control review reports that,
collectively, cover reports issued by each of the audit and
evaluation line directorates

APG 4.2.3 – Disposition 100 percent of Office of Audit
quality control review recommendations within 6                                     N/A
months of report issuance
APG 4.2.4 – Achieve a result of zero (0) material
instances of noncompliance with Government Auditing
Standards as identified in quality control reviews
APG 4.2.5 – Conduct internal operational reviews of
the three major investigative offices every 12 months
and resolve significant matters identified




                                                                                          37
                   Statistical Summary of Performance
                   Fiscal Year 2004 Performance Goals

                                   Annual Goal Accomplishment
                                       (Number of Goals)
                                   Met    Substantially   Not Met
         Strategic Goals
                                              Met
                                                                    Total


1. OIG Products Add Value and
                                    8                        3       11
   Achieve Significant Impact
2. Communications Between OIG
                                    5                        1       6
   and Stakeholders is Effective
3. Align Human Resources to
                                    3          2             1       6
   Support the OIG Mission
4. OIG Resources are Managed
                                   13                        5       18
   Effectively
      Total                        29          2            10       41
      Percentage                   71%        5%           24%      100%




                                                                            38
